No. 20-482
In The Supreme Court of the United States

HERBERT H. SLATERY III, ATTORNEY GENERAL, ET AL.,
Petitioners,

 

v.

ADAMS & BOYLE, P.C., ET AL.,
Respondents.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 33.1(h), hereby certifies that the Amicus Brief of Herbert H. Slatery III, Attorney General,
et. al., in Support of Petitioners complies with the pertinent word limitations. The body of the
document, including footnotes (but exclusive of all material preceding the Interest of Amici and
all material following the last word of the text of the conclusion), contains 5,997 words.

 

Walter M. Weber

Nov. 12, 2020

 
